MEMORANDUM FOR PAUL R. CORTS
               ASSISTANT ATTORNEY GENERAL
                 FOR ADMINISTRATION
               CHIEF FINANCIAL OFFICER
               JUSTICE MANAGEMENT DIVISION


FROM:                 GLENN A. FINE
                      INSPECTOR GENERAL

SUBJECT:              Prompt Payment Act Interest Penalties Paid by the
                      Department of Justice During Fiscal Years 2002
                      and 2003, Information Report 04-09


      On February 25, 2002, we issued an information report (02-04) on the
Prompt Payment Act Interest Penalties Paid by the Department of Justice (DOJ)
during Fiscal Years (FY) 2000 and FY 2001. The report noted our concern with
the increasing amounts of interest paid by the DOJ as a result of the Prompt
Payment Act. The purpose of this report is to update you on the amounts of
Prompt Payment interest penalties paid in FY 2002 and FY 2003.

       The Prompt Payment Act (P.L. 100-496), as prescribed by the Prompt Pay
regulations at 5 CFR Part 1315, requires executive departments to pay
contractors interest penalties when payments are late. By paying contractors
timely, the government enhances relationships with contractors, improves
competition for government business, and reduces the cost of property and
services by avoiding interest payments. Payments to contractors must be
based on the receipt of proper invoices or progress payment requests, and
satisfactory performance of contract terms. If agencies fail to make timely
payment, interest penalties must be paid. These penalties are to be paid
automatically without contractors having to request them. The agencies must
absorb the cost of these penalties from available funds of the program for
which the payment was late.

      We obtained the amounts of interest penalties DOJ components paid for
FY 2002 and FY 2003 from their records. We relied on the information provided
to DOJ’s Justice Management Division (JMD) by each of the components and,
accordingly, did not perform detailed tests to verify the information contained in
 the documentation received from the components and JMD. Thus, this report
 and the associated work was not performed in accordance with Government
 Auditing Standards (GAS), but was performed as another activity of an audit
 organization pursuant to GAS 2.14.

       The following table contains the amount of interest penalties paid by
 each component from FY 1999 through FY 2003.1

Component                          FY 1999       FY 2000       FY 2001       FY 2002       FY 2003
Bureau of Prisons
(BOP)/Federal Prison
Industries (FPI)2                   180,148       525,020              -              -              -
BOP2                                       -             -      105,503       152,176        67,393
FPI2                                       -             -    1,022,352       172,322        61,074
Drug Enforcement
Administration (DEA)                850,438       836,148       551,127       259,636       102,649
Federal Bureau of
Investigation (FBI)                 661,183     1,015,521     2,022,361       912,225       689,600
Immigration and
Naturalization Service (INS)3       707,181     1,631,512     1,583,973       578,652       293,712
Office of Justice Programs
(OJP)                                    663         86,549      86,163        76,864        52,046
United States Marshals
Service (USMS)4                     200,092          63,581      95,739        45,094       128,092
Alcohol, Tobacco, Firearms,
and Explosives (ATF)5                      -             -             -              -      39,542
Assets Forfeiture Fund
(AFF)/ Offices, Boards, &
Divisions (OBD)/ Working
Capital Fund (WCF)                  373,614       373,137       384,922       339,436       276,361
                   Total DOJ $2,973,319 $4,531,468 $5,852,140 $2,536,405 $1,710,469



        1 FY 1999 interest penalties paid amounts were previously reported in Information
 Report 01-02, dated December 5, 2000.

        2For FY 1999 and FY 2000 the BOP and FPI interest penalties paid amount is
 combined.
        3 The INS was transferred to the Department of Homeland Security on
 February 28, 2003. Therefore, the amount reported for FY 2003 only includes interest paid
 through February 28, 2003.
        4 Beginning in FY 2003, the USMS began reporting the amount of interest penalties

 paid by its field offices. Previous FYs only include the amount of interest penalties paid by the
 USMS headquarters.
        5 The ATF was transferred to the Department of Justice on January 24, 2003.

 Therefore, the amount reported for FY 2003 only includes interest penalties paid since
 January 24, 2003.



                                                 2
       As we reported previously, we were concerned by the significant increase
in interest penalties paid in FY 2001. However, the Department has taken
aggressive action given the significant decreases in FYs 2002 and 2003, as
demonstrated in the chart below:



                        Interest Penalties Paid by the
                         U.S. Department of Justice

              $6,000,000

              $4,000,000

              $2,000,000

                       $0
                              FY      FY     FY      FY      FY
                             1999    2000   2001    2002    2003



       As indicated in the table below, each component (excluding consideration
of the USMS which did not previously report field office interest penalties paid)
reduced the amount of interest penalties paid from our last report.

                                           Trend Analysis
                  FY 1999 to           FY 2000 to FY 2001 to FY 2002 to
Component          FY 2000              FY 2001      FY 2002  FY 2003
BOP/FPI              191.4%              114.8%             -        -
 -BOP                      -                    -      44.2%   -55.7%
 -FPI                      -                    -     -83.1%   -64.6%
DEA                   -1.7%               -34.1%      -52.9%   -60.5%
FBI                   53.6%                99.1%      -54.9%   -24.4%
INS                  130.7%                -2.9%      -63.5%   -49.2%
OJP               12,954.1%                -0.4%      -10.8%   -32.3%
USMS                 -68.2%                50.6%      -52.9%   184.1%
ATF                        -                    -           -        -
AFF/OBDs/WCF          -0.1%                 3.2%      -11.8%   -18.6%
      Overall DOJ     52.4%                29.1%      -56.7%   -32.6%




                                       3
      Effective and efficient management of funds disbursed is a critical
function. It is important that purchases and transactions be processed and
paid in a manner that will achieve the lowest possible cost to the DOJ since
interest costs are funded out of agency resources. Thus, in FY 2002 and
FY 2003 approximately $2.5 million and $1.7 million, respectively, of the DOJ’s
resources were unavailable for operational purposes because the funds were
used to pay Prompt Payment interest penalties. However, significant progress
has been made since the FY 2001 Report. The Department should continue to
monitor interest penalties paid by components to ensure these amounts are
minimal.

       As this report is advisory in nature, no formal response is required.
However, we would appreciate your keeping us informed of any action taken in
this regard. If you have any questions pertaining to the above issue, please
contact me on (202) 514-3435 or Marilyn A. Kessinger, Director, Financial
Statement Audit Office, on (202) 616-4660.

cc:   Lee J. Lofthus
      Deputy Assistant Attorney General,
        Controller
      Deputy Chief Financial Officer
      Justice Management Division

      Melinda Morgan
      Acting Director, Finance Staff
      Justice Management Division




                                       4
